WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-1249
Echo Valley Condominium Assn.

Phyllis Davis

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
E Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

11] I am a member of the Bar of the Supreme Court of the United States.
E I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date-

May 11, 2020

(Type or print) Name

Kay Rivest Butler
Mr.

Firm

❑ Ms. M Mrs. Ej Miss

Starr, Butler, Alexopoulos & Stoner, PLLC

Address

20700 Civic Center Dr., Ste. 290

City & State
Phone

Digitally signed by Kay Rivest Butler
/ -,-Date: 2020.05.08 14:14:40 -04'00'

Kay Rivest Butler

Southfield, MI

(248) 864-4932

Zip
Email

48076

kbutler@starrbutler.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Alan J. Gocha, Esq.

RECEI VED
MAY 20 209n
ZWENACEFjCV5RiLEt

